<html>
<title> - NATIVE AMERICAN SACRED PLACES</title>
<body><pre>[Senate Hearing 108-197]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-197

                     NATIVE AMERICAN SACRED PLACES

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                                   ON



                               __________

                             JUNE 18, 2003
                             WASHINGTON, DC



87-991              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                      COMMITTEE ON INDIAN AFFAIRS

              BEN NIGHTHORSE CAMPBELL, Colorado, Chairman

                DANIEL K. INOUYE, Hawaii, Vice Chairman

JOHN McCAIN, Arizona,                KENT CONRAD, North Dakota
PETE V. DOMENICI, New Mexico         HARRY REID, Nevada
CRAIG THOMAS, Wyoming                DANIEL K. AKAKA, Hawaii
ORRIN G. HATCH, Utah                 BYRON L. DORGAN, North Dakota
JAMES M. INHOFE, Oklahoma            TIM JOHNSON, South Dakota
GORDON SMITH, Oregon                 MARIA CANTWELL, Washington
LISA MURKOWSKI, Alaska

         Paul Moorehead, Majority Staff Director/Chief Counsel

        Patricia M. Zell, Minority Staff Director/Chief Counsel

                                  (ii)

  
                            C O N T E N T S

                              ----------                              
                                                                   Page
Statements:
    Bear, Joyce, historic preservation officer and manager, 
      Cultural Preservation Office, Muscogee [Creek] Nation, 
      Ocmulgee, OK...............................................    11
    Bettenberg, William D., director, Office of Policy Analysis, 
      Department of the Interior, Washington, DC.................     3
    Brady, Sr., Steve, headsman, Northern Cheyenne Crazy Dogs 
      Society, member, Medicine Wheel Coalition for Sacred Sites 
      of Native American, Lame Deer, MT..........................    17
    Campbell, Hon. Ben Nighthorse, U.S. Senator from Colorado, 
      chairman, Committee on Indian Affairs......................     1
    Harjo, Suzan Shown, president, The Morning Star Institute, 
      Washington, DC.............................................     8
    Johnson, Hon. Tim, U.S. Senator from South Dakota............     1
    Preston, Gene C., chairman, Pit River Tribal Council, Burney, 
      CA.........................................................    13
    Thomas, Hon. Craig, U.S. Senator from Wyoming................     7
    White Face, Charmaine, director, Defenders of The Black 
      Hills, Rapid City, SD......................................     9

                                Appendix

Prepared statements:
    Bear, Joyce (with attachment)................................    33
    Bettenberg, William D. (with responses to questions).........    39
    Brady, Sr., Steve............................................    48
    Harjo, Suzan Shown (with attachment).........................    54
    Johnson, Hon. Tim, U.S. Senator from South Dakota............    29
    Kile, Nancy..................................................    31
    Preston, Gene C..............................................    65
    Smith, Hon. Gordon H., U.S. Senator from Oregon..............    30
    Thomas, Hon. Craig, U.S. Senator from Wyoming................    30
    Weahkee, Laurie, executive director, SAGE council, 
      Albuquerque, NM (with attachment)..........................    70
    White Face, Charmaine (with attachment)......................    74

 
                     NATIVE AMERICAN SACRED PLACES

                              ----------                              


                        WEDNESDAY, JUNE 18, 2003


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:03 a.m. in 
room 485, Russell Senate Building, Hon. Ben Nighthorse Campbell 
(chairman of the committee) presiding.
    Present: Senators Campbell, Johnson, Thomas, and Smith.

 STATEMENT OF HON. BEN NIGHTHORSE CAMPBELL, U.S. SENATOR FROM 
        COLORADO, CHAIRMAN, COMMITTEE ON INDIAN AFFAIRS

    The Chairman. Good morning. The Committee on Indian Affairs 
will be in session.
    Welcome to the fourth hearing in this committee's series of 
hearings on legal protections of Indian sacred places. As we 
have done in hearings past, today we will hear from the 
Department of the Interior and tribal representatives to 
discuss specific and active cases where Indian sacred places 
are or may be threatened. We'll hear from the Department of the 
Interior; from Suzan Harjo, my dear friend for so many years; 
from Charmaine White Face of the Defenders of the Black Hills; 
from Joyce Bear of the Muscogee Creek Nation; from Gene 
Preston, the chairman of the Pit River Tribe of California; and 
from my Northern Cheyenne brother, Steve Brady, from Lame Deer, 
MT.
    Senator Johnson.

 STATEMENT OF HON. TIM JOHNSON, U.S. SENATOR FROM SOUTH DAKOTA

    Senator Johnson. Thank you, Chairman Campbell. I'll just be 
very brief, and I have a full statement to submit for the 
record.
    Let me say that I appreciate the timeliness of this 
hearing. I hope that it leads to a strengthened approach to 
sacred site protection.
    In my home State of South Dakota in the past year or so we 
have had five instances that come immediately to mind where 
we've had very troubling circumstances arise relative to sacred 
sites. One is relative to the Bear Butte Region in the Northern 
Black Hills, where Federal money through a community 
development block grant fund, which, of course, does go through 
the State government and through the State decision to utilize 
those Federal dollars, resulted in the beginning of a 
development of a rifle range near Bear Butte, one of our most 
sacred sites in South Dakota. That is now caught up in 
litigation, but it is one more instance where I think a lack of 
consultation and lack of sensitivity was apparent.
    We also have circumstances along the Missouri River where 
the Corps of Engineers' management to the river has caused the 
impoundments behind the large earthen dams to rise and to fall, 
and in some instances that has led to the uncovering of remains 
of Native people, bones literally sticking out of the ground 
and into the river, complicated most recently in the north 
point area where the Corps of Engineers in the State of South 
Dakota have struck a joint arrangement with the State to 
improve campgrounds and picnic areas and so on, but it has 
resulted in literally the bulldozing of Native remains. That, 
too, is now caught up in litigation, and a special master has 
been appointed, but it is a sad commentary that it has reached 
that point.
    Recently, in the Sioux Falls region and in the Mitchell 
area of South Dakota, earth work for the development of 
commercial and residential areas has again turned up Native 
remains. There seems to be a great deal of confusion about what 
to do once that has occurred and what the rights of the 
property owners are, what the jurisdiction of the State and 
local jurisdictions is, what the Federal role is.
    So it is my hope that this hearing today will help shed 
some light on what the existing legislation does, where we need 
to better enforce the existing legislation, and to promote 
better communication, and where the existing legislation is 
simply inadequate and where it needs strengthening.
    I'm looking forward to testimony that we will receive today 
and further analysis relative to Representative Rahall's 
legislation on the House side, H.R. 2419, the Native American 
Sacred Lands Act. There is no similar legislation pending in 
the Senate. Representative Rahall's bill is a codification of 
President Clinton's Sacred Sites Initiative, and I look forward 
to insights shared with us from the panel relative to that 
particular piece of legislation.
    So thank you, Mr. Chairman, for your leadership on this 
issue. I look forward to working with you. But this really does 
involve a profoundly consequential matter, as Native people 
find over and over again their most sacred sites, sacred 
remains being treated in a way that would be considered utterly 
intolerable in any other community, and it should be 
intolerable for them, as well. I hope that we can find ways 
that we can get out of the courtroom and resolve these issues 
in a more expeditious, more thoughtful, and more sensitive way 
than has been the case in the past.
    The Chairman. Thank you for that very fine opening comment.
    [Prepared statement of Senator Johnson appears in 
appendix.]
    The Chairman. I think in the case of South Dakota you 
probably represent as many or more Indian people than anybody 
in the United States Senate, and I know that South Dakota is 
caught in somewhat of a difficult position because you have a 
huge influx of people in South Dakota. It's a big State for 
tourism, as an example, which creates jobs, and so many 
important things that Indian people need as well as anybody 
else, and at the same time many of the people that come into 
the States are not very well educated or versed on taking care 
of the traditional things that are of such importance to Indian 
people.
    Senator Johnson. And if I may, Mr. Chairman, as is so often 
the case, I have multiple conflicting hearing obligations, 
including a markup going on today, and I'm not going to be able 
to stay as long as I would like. I won't be able to stay for 
all of the panel testimony, and so I apologize for that. But I 
will be reviewing all of the testimony and I do have staff 
here, because this is a very, very important matter to me.
    Again, I thank you for organizing this hearing today.
    The Chairman. Thanks for being here as long as you could.
    We'll start with the first witness, and that will be 
William Bettenberg, director of the Office of Policy Analyst, 
Department of the Interior.
    Mr. Bettenberg, if you would like to abbreviate your 
comments, your complete written testimony will be included in 
the record. Go ahead and proceed.

STATEMENT OF WILLIAM D. BETTENBERG, DIRECTOR, OFFICE OF POLICY 
      ANALYSIS, DEPARTMENT OF THE INTERIOR, WASHINGTON, DC

    Mr. Bettenberg. Thank you very much.
    My name is William Bettenberg. I'm director of the Office 
of Policy Analysis in the Department of the Interior. 
Unfortunately for this process, I am a substitute witness. 
Chris Kearney testified last year and was expected to be here 
today. His father died just the day before yesterday.
    The Chairman. I'm sorry.
    Mr. Bettenberg. And so he had to go to Connecticut.
    The person who has been primarily working on this, as well, 
is in the hospital this morning. Jim Pace's father is 
undergoing some sort of an operation this morning. So I learned 
that we needed a substitute witness just yesterday afternoon.
    I have reviewed some of the documentation regarding this 
matter. We have an executive order in place. We have 
departmental guidance in place in the departmental manual. I'm 
advised that each of our five land managing bureaus have their 
more specific guidance in place as required by the departmental 
manual. As I understand was discussed at last year's hearing on 
this subject, there are some very practical problems in 
implementing the policies and, as a result of that, the 
Department of Interior reactivated its Sacred Sites Working 
Group. They have interacted with interested parties, including 
those in the Native American community, over the past year.
    There are three key issues. The first one is 
confidentiality of sites. That has to do with how do you 
administer Interior's land management responsibilities and 
still maintain the confidentiality of a site. If you go to a 
public hearing, for instance, and you want to discuss the 
issues regarding a site but you can't describe the site, you 
don't want people to know about the site because of fear of 
looting, you have fairly obvious practical difficulties. You 
also want to run the remainder of your process in such a manner 
that you don't reveal the site.
    The second is discreet delineation that's called for in the 
Executive order of President Clinton. It describes it as 
``discreet, narrowly delineated location on Federal lands.'' 
Ultimately, substantial judgment must be exercised in these 
cases.
    The final issue is how do you assure appropriate 
consultation, given these other two issues. The working group 
is working to provide clarity to the procedures that the 
Department follows as opposed to changing policies. My 
understanding is that the working group is expected to complete 
its deliberations and have further guidance on procedures out 
yet this summer, but it is not available at this point for this 
particular hearing.
    The only other remark that I could make is probably just a 
personal observation in reviewing the material for this. The 
Department may at some point need some legislation to allow it 
to protect confidentiality because of issues that arise in the 
context of the Freedom of Information Act and other acts that 
are intended to bring sunshine to the Government.
    As a former director of the Minerals Management Service at 
the Department of the Interior, I was protected by legislation 
that allowed the Minerals Management Service to receive and 
maintain the confidentiality of proprietary data. This is data 
that was typically coming from oil companies; in some other 
cases information coming from people paying money for mineral 
leases where there were issues in dispute. That I think served 
us well, and at some point I think that something like that 
probably ought to be considered.
    That concludes my brief remarks, and I will attempt as best 
as I can to answer any questions.
    [Prepared statement of Mr. Bettenberg appears in appendix.]
    The Chairman. Well, since you just came on, we'll ask you a 
few questions and then we'll put some in writing for you, too, 
if you would get back to the committee.
    Mr. Bettenberg. That would be fine.
    The Chairman. Senator Thomas of Wyoming has arrived. Did 
you have an opening statement, Senator, before we ask some 
questions?
    Senator Thomas. Why don't you go ahead, sir.
    The Chairman. Okay. Well, let me maybe start with a couple 
of things that I've had concerns about for a number of years. 
There's a place in South Dakota that Senator Johnson is very 
familiar with called Bear Butte, which is a sacred site to the 
Cheyennes, but also to many other tribes that use it, too. And 
part of that mountain, that butte, is owned by the tribe and 
part of it is owned by the State of South Dakota. The part that 
the tribes use, in order for Indian people to use that, which 
they have done for eons, I guess, maybe hundreds of years, they 
have to go through some private land to be able to get to the 
sites that they need.
    For a while--I don't know if this has changed. Maybe 
Senator Johnson knows--but for a while the State of South 
Dakota had an overlook by--they have a visitors center up there 
and there was sort of an overlook and you could have rented 
binoculars where you could watch the Indians pray, like some 
form of recreation or something. I don't know if they have done 
away with those or changed those. I talked to a State Senator 
up there a couple of times about getting a bill through the 
South Dakota legislature to see if the tribes couldn't get an 
easement through the State park so they could go to the land 
that they need without going through private land and upsetting 
private ranchers.
    I guess the question I would have for you is: In your 
Office of Policy Analysis, do you or do you know anybody in 
Interior that has what might be called an ``arbitrator'' 
between States and tribes to try and resolve issues like that 
one?
    Mr. Bettenberg. We don't in the Office of Policy Analysis, 
but in a matter like that I think that it would certainly be 
appropriate for the Bureau of Indian Affairs [BIA] to attempt 
to arbitrate a case like that.
    The Chairman. Well, I mentioned that because I've often 
thought if you were a Catholic it would be akin to being in 
communion and have somebody come in and watch and take pictures 
or something. It's a brutal kind of a thing.
    Mr. Bettenberg. It would seem to be very inappropriate.
    The Chairman. Really inappropriate. But I think that's one 
of the things that we face a lot of times in Indian country is 
a lot of the people that come out to Indian country, they don't 
know the difference, and so part of it has to be education and 
part of it has to be through tighter restrictions in the law.
    In implementing--you spoke of President Clinton's order 
13007. In implementing that order, as I understand from your 
testimony, because of the ongoing reorganization at the Bureau, 
implementation of the order will be done by the Office of 
Environmental Safety and Cultural Resource Management rather 
than the Office of American Indian Trust. Will the Office of 
American Indian Trust be dissolved or folded in, or what will 
be the----
    Mr. Bettenberg. Its responsibilities are being divided 
between the office that you just described and the Office of 
the Special Trustee.
    The Chairman. Yes.
    Mr. Bettenberg. There's some element of nostalgia with me 
with regard to that, since I was the one who originally 
conceived of and sought funding for the Office of American 
Indian Trust back in 1990, but I guess it has served its time, 
I think in a distinguished manner, and the Department is moving 
its trust functions to the Office of Special Trustee, which is 
undoubtedly appropriate.
    The Chairman. You mentioned the difficulty of identifying 
sacred places because many times they shouldn't be revealed. 
There's an inherent danger of letting people know where they 
are in the first place for Indian people to admit where they 
are or tell you where they are. You talked about that a little 
bit. But, given those beliefs, how do you try to protect them?
    Mr. Bettenberg. My understanding is that there are a 
variety of things that you can do. What you're dealing with is 
some sort of a public land action. For instance, you have a 
road. The contractor that is building that road doesn't 
necessarily have to understand why the road might be somewhat 
strangely routed, for instance.
    The Chairman. Yes.
    Mr. Bettenberg. Just simply to avoid a site. The larger the 
site, the more difficult the problems in terms of discreet 
delineation.
    The Chairman. Bottomline is if you don't know where they 
are you can't do much to protect them unless you sort of 
stumble into them.
    Mr. Bettenberg. Well, we have to accomplish that through 
consultation with the tribes.
    The Chairman. I understand that.
    Mr. Bettenberg. Because otherwise you could definitely 
create a problem there. But even when you do know where it is, 
there is a difficult problem maintaining the confidentiality of 
it, but there are practical solutions in many cases to this.
    The Chairman. Yes; well, given that answer, then how do you 
determine which tribes to consult with? Is it based on cultural 
criteria or geographic criteria or historic criteria or what?
    Mr. Bettenberg. Well, it would need to be probably all 
three of those. A lot of tribes are not in the general location 
where they were historically.
    The Chairman. And have tribes generally been helpful 
guiding you or helping you?
    Mr. Bettenberg. I can't answer that accurately. I would 
assume so.
    The Chairman. Well, I realize you just came on board. Is 
that process of consulting done through the Federal Register 
notice process?
    Mr. Bettenberg. I don't know that.
    The Chairman. Could you find that out?
    Mr. Bettenberg. I surely can.
    The Chairman. And report that back to the committee, 
because I, frankly, think there is an inherent danger in that, 
too.
    Maybe the last question I have is a bill I introduced 
recently. It's S. 288--if you would write that down and look at 
that. It will encouraged the Department to contract with tribes 
to provide culturally appropriate services for archaeology, 
surveying, mapping, and site management, too. I'd appreciate 
your response and what you think of that.
    Mr. Bettenberg. Okay.
    The Chairman. I see Senator Smith is here from Oregon. Did 
you have an opening statement?
    Senator Smith. I'll submit it
    The Chairman. Okay.
    [Prepared statement of Senator Smith appears in appendix.]
    The Chairman. Senator Johnson, did you have any questions? 
We'll just go in order of appearance here.
    Senator Johnson. We will submit some questions to Mr. 
Bettenberg and allow him and his colleagues to respond to 
those.
    Let me just say one question that I do have to ask you 
directly, and I suspect that you're not prepared to respond at 
this point, but I would be interested in the Administration's 
evaluation of H.R. 2419, the House bill currently pending on 
that side, because we may be thinking about some variation or 
some counterpart here on the Senate side, and I would be 
interested to know whether the White House views this as a 
beginning point for Senate action or whether the Administration 
has strong objections to some components of it. I think it 
would be very helpful to us to get your perspective on that 
legislation.
    Mr. Bettenberg. My understanding is that the Administration 
has not taken any position on it yet. No hearings have been 
scheduled, I believe, on that. So I don't know what the 
ultimate disposition will be.
    Senator Johnson. Well, the Administration sometimes goes a 
long time without taking a formal position, and I can 
understand that when it's not on the verge of consideration, 
but I would be interested, even if the Administration hasn't 
taken a formal position, in any critique that your Agency might 
have, even if it falls short of being a formal position of the 
Administration. It would be very helpful to us.
    That's the only question I have at this point.
    The Chairman. Senator Thomas.
    Senator Thomas. I have no questions.
    The Chairman. Senator Smith, any questions?
    Senator Smith. Not at this time.
    The Chairman. Okay. Well, we thank you. If you will get 
back in writing those several things that I mentioned and 
Senator Johnson mentioned, I'd appreciate it.
    Mr. Bettenberg. I will.
    The Chairman. And, by the way, I wish you will also thank 
the Secretary. She is next week going to attend the unveiling 
of the Indian Memorial at the former Custer--now Little Big 
Horn--Battlefield in Montana, which is going to be this 
Wednesday on the 127th anniversary. That's something some of us 
have been working on for the last 16 or 18 years to get that, 
and she just yesterday notified us that she will be going up, 
as will Aurene Martin, the acting assistant secretary, too. So 
we are very, very pleased with that, if you would pass that on.
    We'll now go to our second panel: Suzan Harjo, the 
president of Morning Star Institute--welcome, Suzan; Charmaine 
White Face, director of the Defenders of the Black Hills, Rapid 
City; Joyce Bear, the historic preservation officer and manager 
of the Cultural Preservation Office for the Muscogee Creek 
Tribe; Gene Preston, chairman of the Pit River Tribe; and Steve 
Brady, headsman for the Northern Cheyenne Crazy Dogs Society 
and member of the Medicine Wheel Coalition.
    We'll start in that order.

   STATEMENT OF HON. CRAIG THOMAS, U.S. SENATOR FROM WYOMING

    Senator Thomas. Mr. Chairman, I am going to have to leave. 
I have another appointment. I wanted to mention that we will 
have, among other things discussed, is the Medicine Wheel area 
in Wyoming, an area that has been talked about now for at least 
10 years and trying to find a solution. We certainly look 
forward to working to have that done. The question there is 
really what you put in the categories, the different categories 
that are available, and the size that goes into it.
    We certainly have a national historic landmark. That's very 
clear. But when you get on in then to the surrounding area, 
then that becomes more difficult.
    We do need to be able to define these areas a little better 
and to have a way of doing that. We need to recognize also that 
these are multiple use lands. And so I am glad that you are 
into this, and I'm sorry I can't stay, but we do have health 
care on the floor and I have to be over for that. But I do want 
to say we need to continue to work to do that, but a national 
historic landmark is not a land management tool particularly, 
and so we need to be able to come to conclusions on it and we 
want to work with the tribes to do that.
    [Prepared statement of Senator Thomas appears in appendix.]
    The Chairman. Yes; and for those of you on the panels, 
Senator Thomas is also the chairman of the Parks and Public 
Lands Subcommittee of Energy, too. We appreciate your input.
    Why don't we go ahead. We'll just do it in the order I 
called. If you would also like to diverge from your written 
testimony, it will be all in the record.
    Welcome.

  STATEMENT OF SUZAN SHOWN HARJO, PRESIDENT, THE MORNING STAR 
                   INSTITUTE, WASHINGTON, DC

    Ms. Harjo. Thank you, Senator, Mr. Chairman. We're just so 
happy that the committee is taking the approach it is taking 
through oversight hearings and taking testimony from Native 
people who are the most directly affected by these troubles at 
sacred places and the people who are the most knowledgeable 
about them, and holding on development of legislation until we 
really conclude these oversight hearings.
    I don't think any of us has a problem in going forward with 
the development of legislation, if it is meaningful, if it is 
serious stuff. The House bill has been mentioned a number of 
times, and I would like to address that briefly.
    The Sacred Places Coalition gathered in November of last 
year and came up with something that is very simple, just bare 
bones: Essential elements for legislation to protect sacred 
places and objectionable elements. The House bill, 
unfortunately, has almost none of the essential elements that 
we identified and has too many of the objectionable ones.
    The two most important are the first in each category. The 
first one that we identified as an essential ingredient, an 
essential element, is a cause of action. We need a way to get 
into court, if only to avoid going there. Without a cause of 
action to protect sacred places, we have no way of getting 
around a negotiating table. For the most part, we don't have 
any leverage, because people just take the attitude, ``So sue 
me'' because they know we can't, or that we cannot sustain a 
defense in court. So we need a door like the rest of America 
has to get into the courtroom, and perhaps we need several 
doors, but we certainly need a specific cause of action for the 
protection of sacred places.
    The number one objectionable element in legislation would 
be definition of the sacred. And, as you know so well, Mr. 
Chairman, we've resisted in the repatriation laws all the 
pressures to define sacred objects. We said, ``It's sacred 
because people believe it to be sacred.'' But, no one else in 
America, no other religion, has to prove the sacredness of 
anything--of an object, of a place, of a church. It is sacred 
because the practitioners of that religion believe it to be 
sacred, and that's the answer. We would like that same 
treatment. We would like equal treatment when it comes to 
definition of the sacred. We don't want one.
    We have heard about ``discreet delineation'' here, which is 
a very limiting term that is in the sacred sites Executive 
order and has caused a lot of problems. We don't want that term 
in. So, in my written statement, I've outlined all of our 
essential elements and objectionable elements, and have listed 
those sacred places that were identified by the gathering in 
November of the coalition and by the cognizant committees of 
the National Congress of American Indians, also in November in 
California last year.
    I would like to make one remark about the confidentiality 
point. Within the Interior Department, the Bureau of Land 
Management had a practice in the California Desert Plan called 
``areas of sensitivity.'' They would take, in fact, ink blots 
and have a 100-mile or 200-mile area, 5 miles, whatever the 
area was, and a sacred place would be identified through 
consultation with the traditional leadership as being somewhere 
within that ink blot. It could be on the edge, it could be 
right in the middle, but somewhere in there. And that entire 
area was an area of sensitivity. That worked for a long time, 
the cooperation. There was trust there. It was something that 
worked with the Bureau of Land Management's operations. I think 
that kind of creativity carried through to the Bureau of Land 
Management's operation of Tent Rocks National Monument. I 
mention that specifically because the Bureau of Land Management 
is doing a good job, and the Cochiti Pueblo, whose sacred place 
that is, feels they are doing a good job. They're co-managing 
through a cooperative agreement that allows for 
confidentiality, allows for closures at ceremonial times, 
allows for flexibility and review and updating in consultation, 
in the particulars of the management plan. So we know that the 
Federal agencies can do this and can do it well and can do it 
to the satisfaction of the Native peoples who are the most 
directly involved.
    We hope to see more of these best practices highlighted and 
to have the other agencies and sometimes just other field 
offices within the same agencies take a lesson from things that 
are already in place and that have already been proven and that 
work.
    But, if you have to pick out one thing to do, it is to 
create a cause of action, because without that the rest is just 
entertainment.
    The Chairman. Thank you.
    [Prepared statement of Ms. Harjo appears in appendix.]
    The Chairman. We'll now just proceed in order to Ms. White 
Face.

 STATEMENT OF CHARMAINE WHITE FACE, COORDINATOR, DEFENDERS OF 
                THE BLACK HILLS, RAPID CITY, SD

    Ms. White Face. Thank you, Chairman Campbell and Senators. 
Thank you for giving me this opportunity to speak on behalf of 
Bear Butte.
    My name is Charmaine White Face. I am Oglala Lakota from 
the greater Tetuwan Oceti Sakowin, commonly known as the Great 
Sioux Nation.
    Bear Butte is a small mountain on the northeast corner of 
the Black Hills, although separated from the hills by about 8 
miles of prairie. It rises on the plains about 1,300 feet. It 
looks like a bear lying down with its head pointed toward the 
northeast. It is one of the most sacred places to more than 30 
Native American nations from throughout the United States and 
Canada.
    Today, people from all over the world come to Bear Butte to 
pray, from Australia, Europe, all over. It is at Bear Butte 
that we receive spiritual messages and gifts. Moses did the 
same thing on Mount Sinai. More than 4,000 years ago, Sweet 
Medicine received guidance and gifts for the Cheyenne people at 
Bear Butte. To put this in perspective, Christianity has only 
been around for 2,000 years. The Cheyenne continue to pray at 
Bear Butte today, traveling thousands of miles from Oklahoma, 
Montana, since they were separated in the late 1800's by the 
United States.
    Geologists, on the other hand, call Bear Butte a laccolith, 
or a bubble of magma that did not become a complete volcano. 
They say this happened millions of years ago, yet the Oglala 
Lakota people, my people, call this place ``Groaning Bear.'' 
How did my people, the Oglalas, know that this mountain 
groaned? It is estimated by archaeologists that we have been 
present in the Black Hills for 11,000 years.
    We also go to Bear Butte for guidance, messages, and gifts. 
Bear Butte, the mountain proper, currently a National Historic 
Landmark, is managed by the South Dakota Department of Game, 
Fish, and Parks. Although a few parcels of adjacent land has 
been purchased by some Native American nations, the rest of the 
surrounding area is ranch land or is being sold to developers. 
Two drag racing strips, a biker bar, a convenience store, 
campgrounds, and housing developments are all located within a 
few miles of this sacred place.
    Most recently, the nearby town of Sturgis and a group of 
private businessmen, some of whom own gun ammunition 
manufacturing companies and ammunition manufacturing companies, 
received $825,000 in HUD CDBG money to build a rifle shooting 
range within a few miles of Bear Butte. It is a private 
shooting range and requires in the hundreds of dollars to have 
membership. It is supposedly a nonprofit shooting range, and 
recently the State of South Dakota passed a law that if you 
were a nonprofit shooting range within 15 miles of a 
municipality, you could have certain tax breaks for visitors 
that come to use your establishment.
    As Federal money was involved and as it is so near to this 
National Historic Landmark, Bear Butte, the businessmen were 
told over and over by the State South Dakota Historic 
Preservation officer that they needed to consult with the 
Native American nations who use Bear Butte to pray. They did 
not. Instead, they said that all of the environmental and all 
of the legal qualifications to receive HUD CDBG money was 
completed; that there were no adverse impacts.
    A lawsuit has been filed citing violations of four Federal 
laws--National Historic Preservation Act, National 
Environmental Policy Act, the Religious Land Use and 
Institutionalized Persons Act of 2000, and the Religious 
Freedom Restoration Act. A second lawsuit has been filed 
regarding the misuse of CDBG funds which are meant for low-
income people. This lawsuit has been filed as a class action 
lawsuit on behalf of the low income people of the city of 
Sturgis.
    I also happened to bring petitions with 659 signatures 
asking for protection of this sacred place. I know there are 
more signatures out there. These are just the ones that I was 
able to gather; that I have in my own personal possession. Now, 
to a lot of people 659 signatures are not very many. In South 
Dakota, though, it was less than 659 signatures that caused 
Senator Johnson to be able to be a Senator in this term. We are 
a very sparsely populated State. It also was the 400-some 
signatures from Pine Ridge Reservation, my reservation, that 
elected Senator Johnson. So 659 signatures in our State is very 
important. And 659 signatures from Native people who use Bear 
Butte to pray is very significant.
    We strongly recommend that Bear Butte come under Federal 
protection, including a land buffer zone of 5 miles around this 
holy mountain. A lot of this development is occurring right 
very, very closely near and within this 5-mile limitation of 
Bear Butte.
    The recommendation I give is given on behalf of Bear Butte 
and all our relatives: The bald eagles, the golden eagles, the 
buffalo, the deer, the coyotes, all of the sacred plants that 
grow. There are over 30 kinds of sage that grow on Bear Butte, 
itself. I give this on behalf of all our relatives Mitakuye 
Oyasin.
    Do you have any questions?
    The Chairman. Yes; I'll have some, but I prefer to finish 
with everybody first and then I'll come back.
    Ms. White Face. Thank you.
    The Chairman. I have been jotting down as you have been 
speaking. Thank you.
    [Prepared statement of Ms. White Face appears in appendix.]
    The Chairman. Now we will go to Ms. Bear, Joyce.

   STATEMENT OF JOYCE BEAR, HISTORIC PRESERVATION OFFICE AND 
MANAGER, CULTURAL PRESERVATION OFFICE, MUSCOGEE [CREEK] NATION, 
                          OCMULGEE, OK

    Ms. Bear. Thank you, Chairman Campbell. I appreciate the 
opportunity to come before you and speak today. Also, I 
appreciate your including the Ocmulgee Old Fields in this 
hearing.
    The Ocmulgee Old Fields is located around Macon, Georgia. 
It's in the Ocmulgee River Valley in the south-central part of 
Georgia. This is where the Piedmont and the coastal plains come 
together. No other area in our Muscogean ancestral homelands 
match the Ocmulgee Old Fields, as recorded in depth or scope of 
our settlement in the southeast.
    You probably wonder why I'm speaking about it, since my 
tribe is now from Oklahoma, but we were one of the tribes that 
were forced to remove from the southeastern part of the United 
States in the early 1800's.
    Oral history tells us that the Ocmulgee Old Fields is our 
place of origin. This is the cradle of the Muscogee Creek 
Confederacy. The Muscogee Creek Nation is the remnants of that 
Muscogee Creek Confederacy.
    Numerous treaties were passed and signed by our Muscogee 
Creek ancestors, and they ceded a lot of the land that was in 
the southeastern part of the United States, and especially 
along the Ocmulgee River. In 1805 the treaty with the Muscogee 
Creek Nation, when they ceded this land, they left out a 
section of this land, a tract of land in this section along the 
Ocmulgee River, and this is what contained the Ocmulgee Old 
Fields.
    In 1821 a Lower Creek chief named William McIntosh then 
ceded that tract of land, along with some other lands that went 
all the way to the Flint River.
    When our people were removed from the southeastern part of 
the United States, the Ocmulgee Old Fields became lost in myth 
and in legend, so in 1903 the United States Congress authorized 
a portion of the Ocmulgee Old Fields to be set aside for the 
Ocmulgee National Monument. It is now under the National Park 
Service. They preserved some Indian mounds of great historical 
importance in and around this town of Macon. In the recent 
years, the Ocmulgee Old Fields were determined eligible for the 
National Registry of Historic Places as a traditional cultural 
property. These are the first lands east of the Mississippi 
River to be determined eligible to receive that classification. 
Even as more of our people recognize the significance of this 
area, the Ocmulgee Old Fields are still threatened by a road 
project proposed by the State of Georgia.
    The Ocmulgee Old Fields are a sacred place to the Muscogean 
people and it contains numerous unidentified and identified 
settlements and cultures that were used in the area, 
established during a 12,000-year occupation. The most prominent 
features are an extraordinary and distinct mound complex that 
includes a mound rising 50 feet high above the Macon plateau, 
the only known spirally-ascended mound in North America. There 
is also an earth lodge which was used for ceremonial, and in 
the original floor of it has an effigy of a large bird. It is 
dated back to 1,000 years.
    In addition to these unique features, the area has a 
significant number of funeral mounds. Back in the 1930's WPA 
worked with the railroad and they excavated some of those and 
removed some of those remains. My tribe is still looking for 
where those have been stored. We have found some and we are in 
the process of repatriating 11 of those, but there were over 
100 that were excavated.
    While some of the mounds and the settlements have been 
damaged and destroyed in the town of Macon as it was being 
developed, much of this area still needs to be protected.
    In the 1980's the Georgia Department of Transportation 
developed a plan to construct a major highway, the Fall Line 
Freeway, across the State of Georgia from Columbus to Augustus. 
The road proponents identified the Old Fields as a prime 
location for the road corridor through Macon, and for the past 
5 years the Department of Transportation and the Federal 
Highway Department, the agency charged with overseeing this 
project, have been studying possible alignments. Despite the 
request from the Muscogee Creek Nation and others, they have 
failed to identify a route that avoids this sacred area and 
have not adequately explored alternative alignments.
    The Muscogee Creek Nation has passed resolutions calling 
for the preservation of the Ocmulgee Old Fields and opposed the 
construction of the freeway through the area. We have been 
joined by numerous other tribes with and without ancestral ties 
to this land. The Intertribal Council of the Five Civilized 
Tribes represents more than 450,000 people across the United 
States. They passed a resolution supporting us in our efforts 
to protect this cultural identity of the Ocmulgee Old Fields.
    In addition, the United South and Eastern Tribes, comprised 
of 24 federally recognized tribes, passed a resolution 
strenuously opposing the construction of the road and 
requesting the Federal Highway Administration to enter into a 
good faith consultation with all tribes affiliated with this 
land.
    The National Congress of American Indians also recognized 
that this sacred area is being threatened, and passed a 
resolution calling for the protection of the Ocmulgee Old 
Fields.
    In addition to tribal opposition to the highway, both the 
National Park Conservation Association and the National Trust 
for Historic Preservation have listed the Ocmulgee Old Fields 
on their Most Endangered Places List.
    Chairman we urge this committee to support us by requesting 
the Federal Highway Administration engage in meaningful 
consultation with the Affiliated Tribes and to develop an 
alternative route that would avoid encroachment into our 
traditional cultural properties, the cradle of the Muscogee 
Creek Nation.
    I thank you.
    The Chairman. Thank you.
    [Prepared statement of Ms. Bear appears in appendix.]
    The Chairman. We'll go to Chairman Preston. By the way, Mr. 
Preston, are you related to Lucky Preston?
    Mr. Preston. Yes; Lucky is my brother.
    The Chairman. Lucky is your brother?
    Mr. Preston. Yes.
    The Chairman. And so my namesake, Ben Nighthorse Preston, 
is your nephew? He's your nephew?
    Mr. Preston. Yes; and he is doing in good order.
    The Chairman. He's about 13 now?
    Mr. Preston. Yes; he is.
    The Chairman. When you go home, give him my best wishes and 
tell him some day I want him here in this chair.
    Mr. Preston. I'll work on it.
    The Chairman. Thank you.
    Mr. Preston. I'll help you with that.
    The Chairman. Thank you. Go ahead, proceed.

   STATEMENT OF GENE C. PRESTON, CHAIRMAN, PIT RIVER TRIBAL 
                      COUNCIL, BURNEY, CA

    Mr. Preston. Thank you very much, Mr. Chairman. It is an 
honor to be here with you and the other honorable tribal 
leaders to participate in this committee hearing on sacred 
sites. I come to you from the Pit River Nation, lower eastern 
California, to speak to you about an area of great interest and 
sacred value to our people. The sacred area I speak of is 
Medicine Lake Highlands. It is located on the continent's 
largest shielded volcano in the remote, pristine, Modoc 
National Forest.
    The Medicine Lake Highlands are an area of utmost spiritual 
significance and critical to the cultural survival of the Pit 
River Nation, the Klamath Modoc Tribes, and other surrounding 
tribes. The sacred Medicine Lake with the shining lake has been 
designated as a 32-square-mile traditional cultural district by 
the National Register of Historical Places. The highlands are 
located adjacent to Mount Shasta, and these two most sacred 
landscapes are closely related in North American creation 
stories with many physical and mystical links between them.
    Medicine Lake Highlands are a place where the full 
magnitude of the creator's presence can be experienced, a place 
where the creator has left messages for the people on how to 
live, and a place of refuge. Activities have included 
ceremonies, vision quests, cleansing, healing, prayer, 
medicinal plant gathering, hunting, and obsidian trading. This 
is what the Medicine Lake Highlands has been to the Native 
people for the last 10,000 years and continue today.
    The Medicine Lake Highlands has always been respected as a 
sanctuary where the many tribes from the area put down their 
weapons and share the common cleansing sanctity of the land.
    Unbeknownst to my people, in the 1970's and 1980's plans 
were made and leases sold giving away 66 square miles of the 
Medicine Lake Highlands with no consultations held with the 
tribes. Only in 1996, when the first two projects were being 
reviewed, was the Pit River Tribe consulted, long after the 
leases had already been sold promising full rights to 
development and commercial production.
    One of these projects, Telephone Flats, is proposed to be 
located in the heart of the Medicine Lake Caldera and would 
encompass eight square miles, a full fourth of the designated 
tribal traditional cultural district.
    Another project, Four Mile Hill, will be located on six 
square miles just outside the caldera in an area not yet 
evaluated for the National Register. Both projects are 
associated with geothermal power generation and the Calpine 
Corporation.
    Since 1996, we followed the process of environmental review 
and after-the-fact consultation with the Government agencies. 
The environmental impact studies documents recognize these 
projects would cause severe significant impact to Native 
American culture that could not be mitigated, as no mitigation 
measures are capable of alleviating the impact of these 
developments in a way that would preserve the cultural values 
of the tribes.
    In the case of the Medicine Lake Highlands, the agencies 
have made a mockery of the section 106 process by issuing 
geothermal leases without consulting with the affected tribes 
and traditional cultural representatives, in spite of knowing 
the significant of the area.
    A significant additional threat is assessed, the high risk 
of contaminating the State's largest fresh water spring system 
that is beginning in the Medicine Lake Highlands. The 
contamination is assessed to be from arsenic, mercury, and 
other effluents which will flow from the development to 
downstream rivers, lakes, and drinking water wells. It is clear 
the cumulative effects of these developments would result in 
the total destruction of the qualities needed to continue the 
spiritual and cultural use of Medicine Lake.
    Over 90 percent of the general public's comments were in 
favor of stopping the development. In 1998, after environmental 
impact studies were shown, the leases were again renewed, again 
without consultation with the tribes. Without the tribes' input 
in the consultation, the agencies build their own decisions on 
their own perceived assumptions regarding traditional and 
historical tribal values. Without consultation, the tribal 
assessed environmental impacts go unaddressed. As a matter of 
fact, the tribal issues and concerns are not often addressed at 
all, or, if addressed, many times result in indefinitely being 
tabled.
    In a May 2000, compromise decision under the Clinton 
administration Four Mile Hill was approved. Within the same 
compromise decision, the Telephone Flat project was denied as a 
statement of the value to the culture was recognized by the 
Government at that point, thus the compromise decision. At the 
time of the May compromise decision there was also a companion 
moratorium against additional development in the Medicine Lake 
Highlands for a multi-year period. Then, after only one year 
had passed, Calpines Corporation sued the Government for 
denying Telephone Flat, and under the Bush administration 
obtained a settlement agreement that reopened the decision.
    The outcome of the reconsideration as a result of the 
settlement agreement was that the original denial of the 
Telephone Flat was reversed and that project, too, was approved 
in November 2002.
    This is an issue not only regarding the value equation of 
the sacredness of the Highlands, but it is also an issue of the 
integrity of the relationship with the Federal Government 
toward its first people of the lands. The meaninglessness of 
the Federal promises to tribes has become proverbial, and the 
latest decision has only deepened that wound. In approving this 
project, the Government has made an assessment of the value of 
the tribal culture without the tribe's consultation, leading to 
several very challenging questions.
    The first is: How do agencies put a price on the impact of 
their decisions as they have on culture and religion of the 
Native American governments? Additionally, assuming that 
question could be answered, how can agencies assess the price 
of the culture and religion of Native American governments with 
no consultation regarding consideration or compensation to the 
affected governments. And then, third, where is the value 
equation that says trading our culture is worth the perceived 
gain?
    It is our belief that the result of the practice is that 
the price is only calculated in terms of bottom line profit 
that is privatization to companies, while the impacts, cost, 
and sacrifices become the ongoing burdens of the Native 
American people, nature's creatures, society, and future 
generations.
    The calculation again presents the all-too-familiar 
privatization of profits through the socialization of cost. 
This concept is not an isolated one. It is being carried 
throughout Indian country in a seemingly systematic fashion.
    In addition to the privatization of profits in Medicine 
Lakes Highland threat, the developer or leaseholder in this 
case, Calpine Corporation, in our opinion seems to have no 
limits to its ambition.
    The Highlands' cultural significance is widely recognized, 
and the development of these projects is vehemently opposed by 
the Pit River Tribe, the Native Coalition of Medicine Lake 
Highlands Defense, and the National Congress for American 
Indians, International Indian Treaty Council, and many other 
legal groups. Legal steps have been taken to appeal these 
decisions.
    Specifically for the Pit River Tribe the Medicine Lake 
Highlands maintain a sacred sense of place, the sacred places 
that are used for prayer, vision, healing, and renewal. The 
specific relationship of meaning and kinship with the Pit River 
Tribe as to this specific landscape and its creatures is unique 
to indigenous culture. It expresses Native people's particular 
genesis and the gift that Native people have to the world. When 
the sacred relationship with the land is made inaccessible 
through destruction or alteration of an important sacred area, 
Native people lose their identity and the definition as this 
identity and definition is, at its core, the basis for 
transmitting and translating their cultural uniqueness.
    Considering current events in the world, it is our belief 
that it is truer now than ever that the project impact 
outweighs any possible public benefit that this or other 
proposed power plants in the Medicine Lake Highlands could 
create. For these reasons and numerous others stated countless 
times by the Pit River Tribe in its comments, resolutions, and 
consultations, I respectfully ask, one, that you take the 
strongest possible position of protection of the Medicine Lake 
Highlands by issuing a directive from the Government to deny 
these damaging projects and buy back the leases that were 
illegally granted, and, secondly, support the upgrade to 
existing regulations to require that the tribes must be 
included in the most basic land use steps of land management 
process.
    Thank you very much for the opportunity to come before your 
committee and for listening to my testimony on behalf of my 
people and allowing me to fulfill my responsibility to the 
creator by speaking on behalf of the Medicine Lake Highlands, 
who must be represented but has no voice of its own.
    The Chairman. Thank you.
    [Prepared statement of Mr. Preston appears in appendix.]
    Senator Smith. Mr. Chairman?
    The Chairman. Yes, Senator Smith?
    Senator Smith. Is there a piece of legislation under 
consideration to do what our witnesses are asking?
    The Chairman. Not a complete piece of legislation. Some 
things are already in the law, but they are not implemented 
very well or evenhandedly, and in some cases, in my view, 
tribes are not informed well enough ahead of time to be 
involved in the discussion process.
    Senator Smith. It seems to me that we are dealing with a 
problem as old as the story of mankind, and that is how to make 
fairness out of an inherently unfair situation where you have 
an ancient culture and a newer culture and how the newer 
culture can stop development where there's some objective 
evidence of the earlier culture that they can be bound to 
respect and to uphold.
    The Chairman. Yes.
    Senator Smith. And I've listened with great interest to the 
testimony, and I will tell you it is unfair that we say, 
``Well, you've got to make objective what it is you want to 
protect,'' but the more that can be done, the more we're apt to 
be able to help and to stop development where it does intrude 
on sacred places.
    Most of the modern sacred sites of Christianity or Judaism 
or Islam, they have a providence that you can trace, and we 
just simply need to quantify those things as best as we can 
from the cultures of the Native American people so that we can 
provide greater protection.
    The Chairman. I understand.
    Senator Smith. I'm just saying that we need your help. We 
need your help.
    The Chairman. So that's why this panel is here, because 
they have much more experience and better speakers about it 
than we are.
    Senator Smith. Yes; thank you.
    The Chairman. Let me maybe start with a couple questions of 
my friend, Suzan.
    Oh, I apologize. I forgot Steve. Go ahead, Steve.

  STATEMENT OF STEVE BRADY, Sr., HEADSMAN, NORTHERN CHEYENNE 
CRAZY DOGS SOCIETY, MEMBER, MEDICINE WHEEL COALITION FOR SACRED 
            SITES OF NATIVE AMERICAN, LAME DEER, MT

    Mr. Brady. [Native words.] My Cheyenne name is Night Wolf. 
I'm talking as a headsman of the Crazy Dog Society today on 
some very profoundly sensitive and meaningful issues of our 
people.
    First of all, I guess, in terms of my testimony, I would 
like to have it made a matter of record what was submitted.
    The Chairman. It will be included in the record.
    Mr. Brady. And we may also submit something here at a later 
date to include with my testimony.
    I have made some recommendations at the beginning of my 
testimony, so I request that the committee carefully review our 
recommendations, and to also please include the Sand Creek 
National Historic Site Act of 2000 and the Little Big Horn 
Battlefield name change legislation and those procedures that 
have been in place for some time to be carefully reviewed.
    Even though we have had existing legislation in place and 
administrative procedures, Federal agencies often take off on a 
tangent and do things on their own, and sometimes that has 
happened even with Sand Creek, as comprehensive as legislation 
as it is. So, in any case, Federal agencies do need some 
controls and to carefully consider consulting with tribes on a 
regular basis.
    We have been working on the Medicine Wheel Medicine 
Mountain for very close to a decade and a half. Many spiritual 
leaders have been involved with that from different tribes, 
Plains tribes, as well as State and Federal agencies and the 
County Commissioners of Wyoming. We have come to a historic 
agreement there with regard to the historic preservation plan 
and the consultation process, but even then there still needs 
to be protective measures for the cultural resources that are 
there on the Medicine Mountain.
    We have also requested that the FAA, Federal Aviation 
Administration, remove the radar tower, radome, that sits 
there. That was done without the consultation of tribes. So FAA 
is looking into the eventuality of removing the radome at some 
point in time.
    One of the other things is that Wyoming Saw Mills and the 
Mountain States Legal Foundation is in litigation against the 
U.S. Forest Service, and the Medicine Wheel Coalition has 
joined the U.S. Forest Service, and that's currently pending in 
the 10th Circuit Court of Appeals, so the Mountain States Legal 
Foundation and Wyoming Saw Mills are purporting that we're 
interfering into their timber harvesting and that the HPP is 
interfering into their timber harvesting.
    With regard to Bear Butte, our people have gone there for 
centuries upon centuries. Our traditional government comes from 
there, which I represent here today, the Counsel of 44 Chiefs, 
of which I am also a member, Senator Campbell, and the military 
societies and our sacred covenant, the Sacred Arrows, which we 
still have today, and the prophecies of Sweet Medicine and the 
gifts that were brought to our people.
    But also the special emphasis should be made that we are 
landowners, as tribes there, as the Northern Cheyenne Tribe and 
as other tribes. Our people have gone there to pray, especially 
during difficult times when our veterans or our military is 
engaged in conflicts around the world. My grandfather, Alec 
Brady, went there to pray with the Sacred Arrow Keeper in 1971 
during the Vietnam Conflict and they fasted there for several 
days and prayed for the end of Vietnam. And even as I joined 
the military in 1975, my grandfather took me there for 
offerings and prayers. And when my son joined the military, 
when he joined the Marine Corps, I took him there for offerings 
and prayers and I also took him to the Medicine Wheel.
    These are the things that we do that are directly connected 
with what's going on around the world, and my son has come back 
home in a good way, and he is now with the law enforcement 
locally. These prayers are very meaningful in many ways.
    The Housing and Urban Development has done this without 
consultation with the Northern Cheyenne Tribe, and they seem to 
have weaseled out of it, but we're not going to let them go. 
We're not going to let them forget about it. We're not going to 
let them go that easy. The United States Government still has a 
Federal trust responsibility to tribes that is derived from 
treaties.
    We've also been engaged for quite some time with Bear's 
Lodge with what is now referred to as Devil's Tower. That was 
engaged in litigation for some time, as well, and ended up in 
the 10th Circuit Court of Appeals with the rock climbers and 
the tribes and Devil's Tower, and it ended up to be that June 
was the month that tribes wanted set aside, and it ended up to 
be that June is a voluntary ban, not a mandatory ban on rock 
climbing.
    If I was to go downtown here to start climbing the steeple 
of one of our churches here in the community here, I'd probably 
end up in jail.
    The other thing is that we are faced with energy 
development on the Northern Cheyenne Reservation, on and around 
the Northern Cheyenne Reservation within the Powder River 
Basin. We are probably sitting on the best coal in the United 
States and everybody wants that. And, in addition to that, coal 
bed methane is going on and is contaminating, depleting our 
very precious resource, a sacred resource, our water supply.
    Railroads, power lines, pipelines, et cetera, powerplants 
are going into the Powder River Basin. We're right in the 
middle of that. And so we need to have that addressed and have 
our reservation preserved.
    The Cheyenne battle sites and massacre sites need to be 
preserved. We have a very extensive history of resistance to 
the encroachment of the United States. We have many, many 
battle sites in an eight-State area, and many of these battle 
sites have hastily buried human remains, and we need to have 
these battle sites protected. Sand Creek massacre site 
legislation, the Little Big Horn Battlefield legislation are 
just the beginning.
    Finally, the Native American Church, they need to have 
access for the acquisition of the holy sacrament peyote. It is 
getting very, very difficult and very costly to go in and 
acquire the sacrament peyote down in Texas.
    I dedicate my testimony to all of those that have worked on 
sacred sites--and they are listed in my testimony--and 
certainly to those generations that we work for that are not 
here yet.
    Thank you, committee.
    The Chairman. Thank you.
    [Prepared statement of Mr. Brady appears in appendix.]
    The Chairman. I've jotted a couple of notes here. Let me 
start with Suzan.
    As you were speaking, Suzan, I was writing myself here 
about sacred sites. What do you--you know, to me there's a 
question of why a site is sacred, where a site can be sacred, 
who considers it sacred, and if sites that are of other people 
should be universally sacred. For instance, Indian people have 
a certain way of believing, a religious way of believing. Other 
people have different ways, maybe a Catholic or a Protestant or 
Jewish or somebody else. Do you see a big umbrella for their 
religions to be also included as sacred sites?
    Ms. Harjo. They already are. Their religions and their 
sacred places, their churches, their places where things 
happened that are important to their religions are already 
protected, and even on Federal lands there are Christian 
churches. There are other Christian denominations and other 
religions that have edifices right on Federal lands and those 
are protected, and they have a way of going into court if those 
protections fall through or if something happens in violation 
of those promises.
    The Chairman. I guess maybe I didn't articulate it very 
well. I was just thinking of myself of a church in Colorado. It 
was there for years and years. It is in Durango, CO. It was 
there for years and years, and they built a new church and sold 
that church, and that church became a funeral home and then 
later became a restaurant and some other things. Indians don't 
believe that way, I know, but I was wondering what--well, never 
mind. That's probably for another day. But there are certainly 
some differences of how people believe what might be called 
sacred.
    You talked about a cause of action. Who do you think would 
be qualified to bring the cause of action? Would it be just any 
Indian person or a tribe as a spokesman or who?
    Ms. Harjo. I think the leadership of the traditional Native 
religions should have standing, the practitioners of certain 
ceremonies, if they are individual or if they are not 
necessarily the tribe as a whole, the nation as a whole. With 
the Cheyennes, for example, you have certain ceremonies that 
are set aside for the different societies, so those societies, 
those components of the nation should have standing. And in 
certain instances the Indian nation, itself, should have 
standing. It all depends on what the violation is and whose 
authority the sacred place falls under; whose responsibility is 
it to keep it up, to maintain it, or to conduct ceremonies 
there.
    The Chairman. Okay. In some cases it would be the tribal 
council and in some cases maybe the traditional people or----
    Ms. Harjo. That's right.
    The Chairman. If we talk about trying to protect an area, 
it is very complicated. Tribal land is easy, but State land, 
county land is much more difficult, I think, than either tribal 
or Federal land. There's an awful lot of interaction that needs 
to take place that doesn't now, in my view, and not nearly 
enough consultation. But you spoke of a coalition that's 
preparing legislation for this committee to consider in the 
weeks to come. When do you think that's going to be available?
    Ms. Harjo. The only thing that we have prepared at this 
point are the essential elements and the objectionable elements 
that are detailed in my written testimony.
    The Chairman. Is that the Rahall bill you were talking 
about?
    Ms. Harjo. That's the Rahall bill that doesn't meet that 
criteria. And so our legislation that we would propose would be 
along those lines, would include all of those ingredients and 
would not include the things that we find so objectionable, 
like definition of the sacred. That's intrusive and limiting.
    The Chairman. Yes; well, if you would, I'd like you to work 
with our staff and maybe we can frame up something that I can 
introduce as a Senate bill. There is no Senate counterpart, I 
don't believe, to the Rahall bill if I'm not mistaken, so there 
might be something we can do.
    Ms. Harjo. It would be wonderful to do something that truly 
had some teeth to it and fulfilled, after 25 years, the promise 
of the American Indian Religious Freedom Act.
    The Chairman. Let me try and do that with your help. It 
leads to another thing, and I will go on to Ms. White Face. I 
remember some years ago when Senator Bill Bradley was here--and 
the reason I mentioned this is because you mentioned the number 
of votes that your current Senator won by, who is a very, very 
good friend of mine. Both of them are, in fact. Just a few 
hundred votes, very close, and that speaks to the positive 
activism with Indian tribes, and I'm delighted to see they are 
active, very frankly. But I remember when Bill Bradley was here 
he introduced a bill that would have returned a good portion of 
the Black Hills, as you remember. I thought that bill really 
had some merits.
    I was up in South Dakota and attended an Indian function 
about it, and I found that the Indian people were very, very 
supportive of that, but at that time nobody from the South 
Dakota delegation would support it, and I think the reason was 
the South Dakota delegation historically, the ones I've known, 
have I think done a very fine job for Indian people, but the 
political reality is you can't do anything for them if you get 
thrown out of office. So there are some things there they want 
to do because it is the right thing to do, but you know that if 
you do you may not be around to help them at all the next time, 
so you end up with one of these, ``Is a half a loaf better than 
no loaf,'' and that is in the eyes of the beholder.
    But I remember very clearly, it was a bill I did support, 
and we just couldn't get any support from South Dakota at the 
time. The ranchers, the white community saw, and a lot of 
people are so against that that there just wasn't enough 
movement, so I guess we have to get more Indians registered or 
something in South Dakota because it's still a long way away 
from seeing that happen. Maybe it never will because the State 
would probably oppose it, too.
    You mentioned Bear Butte and the shooting range, too, and 
you note that the South Dakota State Preservation Office 
informed the city of Sturgis and the developer about the need 
to consult with the tribes. How, in that case, since it was 
done partly through HUD money, as I understand it, did you know 
of anybody or did you oppose the grant before it went, that 
CDBG grant?
    Ms. White Face. No; we didn't even hear about it.
    The Chairman. You didn't know about it beforehand, so now 
you are going to go to court; is that correct?
    Ms. White Face. Yes.
    The Chairman. In a lawsuit. What is the city of Sturgis or 
the State of South Dakota--are they in an adversarial position 
in this lawsuit?
    Ms. White Face. No; the plaintiffs in it are Secretary Mel 
Martinez, Housing and Urban Development, the State of--not the 
State of South Dakota, but the Black Hills Council of Local 
Governments.
    The Chairman. Yes.
    Ms. White Face. They were the agency that drafted the HUD 
application, and it was signed by former Governor Bill Janklow, 
who is now Congressman Bill Janklow. The lawsuit is also 
against the city of Sturgis and then the Sturgis Industrial 
Expansion Corporation, which is the group of the developers, 
and then the Black Hills Sportsman Complex, which is the actual 
shooting range, itself.
    The Chairman. Yes.
    Ms. White Face. So they are all named together as 
defendants. The United States tried to be excluded as a 
defendant, stating because of HUD regulations on CDBG, that 
they handed over their responsibility to the State of South 
Dakota. It was the State Historic Preservation Officer in 
letters who wrote and kept saying they needed to consult with 
the tribes and it never happened, and then all of the sudden--
--
    The Chairman. Do you have copies of those letters or any 
other notices?
    Ms. White Face. We have.
    The Chairman. Would you turn copies of those in to the 
committee?
    Ms. White Face. Yes; I will.
    The Chairman. Okay. Good. By the way, we did invite HUD to 
appear here today. We thought we might ask them some of these 
questions or you might give us some to ask them, but they 
declined to appear because of the pending litigation.
    You spoke of a buffer zone. If we had a buffer zone, 5-mile 
buffer zone, for instance, around Bear Butte--you spoke at 
length about Bear Butte, as Steve Brady did--where would you 
see the funds coming from to buy that buffer zone, since a lot 
of that is private land? And who would we get the State of 
South Dakota to declare their part of that land a buffer zone. 
Not so easy, huh?
    Ms. White Face. No; not so easy, but something has to be 
done. Something definitely has to be done. I have not had time 
to research it, but I also know that there was some HUD CDBG 
money used to fund a wastewater treatment facility adjacent to 
Bear Butte.
    The Chairman. Yes.
    Ms. White Face. I have not had time at all to research----
    The Chairman. It raises some very complicated questions.
    Ms. White Face. Yes.
    The Chairman. For instance, what would take place within 
the buffer zone and who would decide who could do what within 
that buffer zone.
    Ms. White Face. If it was--my Cheyenne ally sitting here--
if it was up to us----
    The Chairman. Kick him under the table. Maybe he's got some 
answers.
    Ms. White Face. From my opinion, and I'm sure that the rest 
of the defenders would agree with me, is that we would rather 
see this buffer zone and all of Bear Butte be created to be 
restored as a complete total wilderness area with no 
development at all. There are, you know, the South Dakota Game, 
Fish, and Parks currently has a small buffalo herd right there 
at the base of Bear Butte.
    The Chairman. Yes.
    Ms. White Face. I know I hear the local stories about the 
local private--I'll call them ``owners,'' because, you know, we 
still stay this is our treaty land.
    The Chairman. Yes.
    Ms. White Face. About the local people who stop the 
Cheyenne people from going on the north side of the mountain. 
All of the development has been--not all the development, I 
will say the development on the mountain by the State has been 
on the south side.
    The Chairman. That's the part the State owns.
    Ms. White Face. And the State now has what they call the 
Bear Butte Forum, where we meet or I've met this year with the 
Forum and we give recommendations to the State Game, Fish, and 
Parks Commission. They recommended that the road going up the 
side of the mountain and the parking lot up on the side be 
removed. Senator Johnson earlier remarked about how people 
drive up there, tourists. They drive up there and then they 
watch as people are praying. This happened to me way back in 
1980.
    The Chairman. Yes.
    Ms. White Face. It is so appalling. It is so disrupting. It 
is so disrespectful.
    The Chairman. Years ago I saw stationary field glasses up 
there, you know. You put the quarter in and watch the Indians 
pray.
    Ms. White Face. The quarter. Right.
    The Chairman. Are those still there? I haven't been up 
there for a number of years.
    Ms. White Face. No; they took those out.
    The Chairman. Those are gone.
    Ms. White Face. And they are going to be taking out that 
upper parking lot and the upper road.
    The Chairman. Good.
    Ms. White Face. They will be taking that out this fall. 
People are still allowed to hike up there. The development--I 
mean, if you are up on top of that mountain you can hear things 
from miles and miles away.
    The Chairman. Yes.
    Ms. White Face. Now, there is a new, recent drag strip that 
was built. This just started in operation just a couple of 
weeks ago. There are two drag strips. If you have ever been 
around a car racing drag strip----
    The Chairman. Yes; I have.
    Ms. White Face [continuing]. You can hear that miles and 
miles away. And in August, when a lot of our Ham bleciya, our 
vision quests are supposed to be happening, that's when the 
motorcycle rally happens there.
    The Chairman. I started the drag races at Mile High Drag 
Strip in Colorado last year and I couldn't hear for 4 days 
afterwards.
    Ms. White Face. Right.
    The Chairman. I know they are noisy.
    Ms. White Face. Right.
    The Chairman. On the other hand, you have additional 
problems in South Dakota because it relies heavily on tourism.
    Ms. White Face. Yes; tourism.
    The Chairman. Not only the Black Hills, but Mount Rushmore 
and Crazy Horse, these other places get huge numbers of people 
that help the economy and the Indian economy. Indian people 
have jobs in those places and booths and so on. It is a tough 
thing to balance.
    Ms. White Face. You know, for us the whole Black Hills are 
sacred.
    The Chairman. Yes; I know.
    Ms. White Face. Bear Butte, itself--if you can imagine Bear 
Butte as a small mountain, that is sacred.
    The Chairman. I've been there.
    Ms. White Face. The whole Black Hills for us are sacred. It 
has been mentioned about the lack of consultation. There are 
many things going on in the Black Hills where we are not 
consulted at all. The Forest Service doesn't consult us. Most 
Federal agencies do not consult us about what is going on. 
Anything in the Black Hills, and now the environmental 
destruction is so tremendous. I know Home State Gold Mine, 
which caused everything that happened within our treaty 
territory to happen, is trying to make it into an underground 
science laboratory because they have taken out all the gold 
now. It is no longer economically feasible for them to dig out 
any more gold on that mine. They just cut off the pumps last 
week so that all the water is starting now to drain into that 
mine, but what nobody is thinking about is what is that going 
to do to the aquifers, underground aquifers. How many toxins 
are going to be leaching down into the underground aquifers? 
Has anybody consulted the tribes about another way to handle 
it?
    You know, there's cause and effect. We have been around for 
a long time, 11,000 years in the Black Hills is a whole lot 
longer than a little over 100 for the non-Indian people.
    The Chairman. This committee has always stressed the 
importance of consultation with all the Federal agencies that 
we have some jurisdiction over. Sometimes you have to ask how 
much consultation is enough.
    I note with interest that Department of the Interior Joint 
Tribal Task Force on Trust Reform met in one form or another 45 
times in 11 months, 45 times, and yet some tribes are saying, 
``You didn't consult with us enough.'' And we mentioned that 
the unveiling of the monument at the battlefield will be next 
week. That bill we passed 14 years ago, I think, or 16 years 
ago, and tribes were totally in support of that. Everyone of 
them endorsed it of the northern plains. Yet I understand that 
there is at least one group trying to seek an injunction right 
now to prevent the unveiling. The thing is already built. So 
all Indian people don't think exactly with the same mind when 
you talk about consultation or how much we need to do. 
Somewhere along the line I guess you've got to say, ``Well, 
we've got to move ahead or nothing happens.'' But I certainly 
support consultation with tribes.
    Let me go to Mr. Preston. First let me ask you, I'm trying 
to get a fix on where the Highlands--what is it near? Let's say 
from--you mentioned the Medicine Lake Caldera. Is that in the 
same area where the very famous Modoc Lava Beds where Captain 
Jack made his last----
    Mr. Preston. Yes, Yes; as a matter of fact it is the same 
general area.
    The Chairman. Okay.
    Mr. Preston. If you're familiar with northern California--
--
    The Chairman. Yes.
    Mr. Preston. It is kind of placed between Shasta and Last 
Mountains.
    The Chairman. Yes.
    Mr. Preston. It is way up in the northeastern portion of 
the State.
    The Chairman. The leases that you opposed were renewed by 
the Clinton administration after the issuance of the 1996 
Executive order on sacred sites protection. This is 7 years 
later. If I understand you correctly, you don't have any legal 
options left. Is that--did I hear your statement correctly?
    Mr. Preston. We are pursuing other legal options in terms 
of litigation against the rulings that we have yet to go, but I 
want to comment on your consultation question because that is 
kind of at the heart of our quandary. We have had some 
consultations recently, but meaningful consultations with an 
outcome are different than the many checkoffs that you might 
have described. Those happen, you know, frequently.
    The Chairman. Yes.
    Mr. Preston. It's a telephone call, it's a meeting that is 
ill-prepared or ill-announced.
    The Chairman. It's tomorrow morning and you already can't 
be there because you have some other plan.
    Mr. Preston. In our case, I was granted what I feel was an 
honor. I was able to meet with Kathleen Clark and Dale Bosworth 
one on one over these issues, and we did. Unfortunately, at the 
end of the meeting, after we presented all of our compelling 
evidence and all of our support, the Advisory Council on 
Historic Preservation ruled in our favor, all the State 
historical people ruled in our favor. Every step that according 
to the current regulations outlined we took, and it came out in 
our favor, but after that consultation Kathleen described it as 
a clash of cultures, whereas the Native American culture is 
that of the land. When you described other religions, you know, 
ours is associated with the land, not necessarily a building. 
And the clash of cultures she described was that the other 
culture is a capitalistic culture, and that is ``rake as much 
cash as you can out of any opportunity.''
    The Chairman. Yes.
    Mr. Preston. And that's where the two collide, you know. 
When we think today of what next step in the litigation that we 
are proposing, I think that position is exactly the same 
position, you know, how do we get into a court of law so that 
these issues can be discussed so that this decision to reverse 
the previous well-supported, well-documented position that the 
Native American culture was [native word.] How could that be 
reversed? What value equation did they come across that said 
now it is different and now it can be set aside? What value did 
they put on our culture?
    You know, you can talk all day long and you can mitigate 
all day long, but some of these questions have to be answered.
    The Chairman. Right.
    Mr. Preston. They are at the root of the inability to----
    The Chairman. In your view, is dual use of what might be 
called a sacred site possible? I'm thinking out in your part of 
the country, at least up around Sacramento, a little further up 
in the foothills, there's a place called Grinding Rocks.
    Mr. Preston. Yes.
    The Chairman. It was the ancestral home of the Miwoks, the 
Foothill Miwoks. There's a State park there now. Now, I don't 
know for sure, because I've never asked the Miwoks, but I would 
assume that, since there's a ceremonial ground there and so on, 
that it was considered at least quasi-sacred if not really 
sacred, but it is also dual use because it is obvious as a 
State park. Is that possible in your belief?
    Mr. Preston. Yes; and I think that we exercise that today, 
that the dual use in terms of recreation or access by the 
public has been something that we have begrudgingly embraced 
over the years. There are park sites along the Medicine Lake, 
itself. There are some surface roads that are maintained by the 
BLM and the Forest Service. But what we're talking about here 
is full-fledged geothermal power development.
    The Chairman. Sure. That's not compatible.
    Mr. Preston. It's going to impact the aquifer, the water, 
the trees, you know, the--everything you can think. This place 
is so gorgeous and it has been our sacred site forever, you 
know, and then you come in and you start plowing, digging it 
up, and it is going to contaminate it forever.
    The Chairman. I understand.
    Mr. Preston. That's the situation. It's not really a dual 
use issue. It is a destruction issue.
    The Chairman. Yes; preservation may have some dual use, but 
not if it is totally changed.
    Mr. Preston. Right.
    The Chairman. Steve, thank you for coming all the way down 
from Lame Deer. You noted two cases, first, the Sand Creek 
Massacre site, and second, the Little Big Horn, changing the 
name of it, and the memorial at the Little Big Horn. I was very 
happy to be involved in both of those, as you know. Some of 
them are not so easy. That Sand Creek site, which is not 
completely done yet, as you know, took 20 years of my life to 
get that thing changed. I just tell you that so that you know 
that when you have a large body, 100 Senators and 435 
Congressmen, or so on, nothing gets done without an awful lot 
of input, but it does if you have enough perseverance, if you 
want to stick to it long enough, it does get done. Both of 
those cases were difficult, but I think one of the reasons that 
took long, too, was because we wanted to make sure that tribes 
were involved as much as they wanted to be in the consultation 
process.
    Along that effort, you mentioned the use of peyote. There 
are now in Native American ceremonies--it doesn't happen with 
the Cheyenne much because they are very strict, I know, but it 
does with some tribes. I happen to live with the Southern Utes, 
and I know it does there. Some tribes, non-Indians can 
participate in Native American ceremonies, in Native American 
Church, as an example. I've even seen non-Indians involved in 
sun dance with some tribes, which rather surprised me. It's 
rather phenomenal. I guess you have to balance this thing about 
religious freedom. If I want to be a Catholic or a Protestant 
or something else, I guess I can be. Anybody can be. But some 
Indian people take offensive to that. What is your feeling 
about that?
    Mr. Brady. Well, needless to say, it is very controversial. 
There are some very specific distinct procedures and practices. 
And, again, like with the Native American Church, it goes from 
tribe to tribe. I think, you know, the tribe that allows it I 
think it's probably up to them and how they do things, and when 
it comes to ceremonies like sun dance and things like that, 
that in and of itself is very controversial in Indian country.
    With the Cheyenne, there are certain things that we think 
we have to do. Some of it is language specific, depending upon 
the part of the ceremony and things like that, where there is a 
need to know and speak, be fluent in Cheyenne language. Things 
like that are essential. Again, it depends on the part of the 
ceremony.
    Although I haven't seen white people in Cheyenne sun dance, 
I think it happens with other tribes.
    The Chairman. It does. Well, I appreciate that. I really 
have no further questions. I usually jot so many notes down to 
myself when I'm listening to testimony, sometimes I've got to 
go back through them a little bit. But if I have more, I will 
submit them in writing for you.
    This is an oversight hearing, as you know, to try to give 
us a little more information if we do try to move some 
legislation, but I know several of you have come a long way and 
I certainly do appreciate your being here.
    With that, thank you. We'll keep the record open, in fact, 
for 1 month in this case. If you have additional comments or 
something you want to be included in the record, please submit 
that.
    Thank you. The committee is adjourned.
    [Whereupon, at 11:22 p.m., the committee was adjourned, to 
reconvene at the call of the Chair.]


=======================================================================


                            A P P E N D I X

                              ----------                              


              Additional Material Submitted for the Record

=======================================================================


 Prepared Statement of Hon. Tim Johnson, U.S. Senator from South Dakota

    Thank you, Mr. Chairman, for holding this important oversight 
hearing on Native American sacred places. I would also like to thank 
Charmaine White Face, the Coordinator of the Defenders of the Black 
Hills organization, for being here today. Thank you for your work in 
protecting Bear Butte, South Dakota.
    Bear Butte is a place of deep religious significance to the Lakota 
people, in addition to dozens of other tribes. With the help of Federal 
dollars, the Black Hills Sportsman's Complex, a shooting range, has 
been proposed at a site 4\1/2\ miles north of Bear Butte. While tribes 
understand the need for economic development in this area, tribes feel 
that they were not consulted in the process as mandated by existing 
federal law. As such, along with seven tribes, the Defenders of the 
Black Hills, in February 2003, filed suit in U.S. District Court to 
halt construction on the Sportsman's Complex. The court issued an 
injunction halting construction pending the outcome of the litigation. 
Although Judge Schrier has postponed the start of the trial, my office 
is anxiously awaiting the outcome of this case. Because the litigation 
is ongoing, I think it would be premature to offer detailed remarks on 
the case. I will say, however, that I understand the concerns of the 
many different tribes here today. The many people coming to Bear Butte 
to pray should be able to do so peacefully and without being disturbed.
    Bear Butte reflects other situations in which tribes are working to 
protect sacred places. In May 2002, a construction crew uncovered human 
remains near the Missouri River at North Point Recreation Area, near 
the location where nearly 300 Yankton Sioux grave sights had been 
discovered in December 1999. Therefore, it was reasonable to expect 
that the remains discovered in May 2002 were also those of the Yankton 
Sioux. Even though Federal agencies must consult with tribal officials, 
some remains were removed without the knowledge or permission of the 
Yankton Sioux. At the Senate Committee on Indian Affairs hearing last 
July, I urged Federal agencies to be sensitive in protecting sacred 
Native American sites by following existing laws such as the Native 
American Graves Protection and Repatriation Act.
    Perhaps, as lawmakers, we need to do more than just urge the 
agencies to follow the law. I would welcome comments on Representative 
Rahall's bill, H.R. 2419, the Native American Sacred Lands Act. At this 
juncture, no similar bill has been introduced in the Senate. I am 
hopeful this hearing will give this committee guidance on how to 
proceed.
    In closing, I would like to thank Charmaine and the others here 
today for the work that they are doing to protect sacred sites. This is 
an extremely important issue and we must work hard to assure that 
cultural protection laws are adhered to by everyone.
                                 ______
                                 

  Prepared Statement of Hon. Gordon H. Smith, U.S. Senator from Oregon

    Mr. Chairman, thank you for holding today's hearing on the 
protection of Native American sacred places. I believe we would all 
agree that there exists a need to do everything possible to preserve 
the cultural and spiritual landmarks of our Nation's first Americans. 
For too many years, sacred Native sites have been seized without due 
process and without consultation of the indigenous peoples who cherish 
them.
    I have supported and will continue to support efforts to protect 
Native American sacred sites. In my home State of Oregon we have a 
unique opportunity to provide such protection. Over one-half the land 
in my State is managed by the Federal Government. As such, many sacred 
sites are located on land that will perpetually remain in public 
ownership as forests and grasslands. Federal agencies in Oregon have 
made great strides in working with the tribes to identify cultural 
sites and to recognize them in the land management process. The 
Willamette National Forest has an excellent working relationship with 
the Grand Ronde Tribe, as does the Umpqua National Forest with the Cow 
Creek Tribe. These National Forests and tribes are working together to 
find the optimal balance of protecting sacred sites with the need to 
generate revenue for rural economics and schools.
    In one case, I have found that the best way to achieve that balance 
is to return a portion of a National Forest to a tribe. The 
Confederated Tribes of the Coos, Lower Umpqua and Siuslaw is the only 
tribe in Oregon that has not been granted any substantial land base by 
the Federal Government. In legislation that I recently introduced, the 
tribes have identified an area of the Siuslaw National Forest with a 
high concentration of cultural sites, as well as a great potential for 
generating revenue from forest health and management activities. The 
legislation, which will be reviewed by this committee, allows the 
tribes to manage the land for those purposes--rather than for the 
complex and often contradictory purposes of Federal forest regulations.
    Federal agencies also need to be talking to each other. In southern 
Oregon, the BLM and Forest Service are not working off the same page 
with regard to a proposed withdrawal of a cultural site--known as 
Huckleberry Patch--from mining development. Each agency has different 
responsibilities and as a result, misunderstanding has triumphed over 
good intentions.
    I should also mention that logging and mining are not always the 
primary threats to tribal cultural sites. Many tribes in Oregon have 
subsistence treaty rights--covering salmon harvest and berry gathering. 
Ironically, the lack of harvest on some of Oregon's Federal forests is 
preventing sunlight from reaching the forest floor. As a result, 
huckleberry plants are not growing and producing fruit--thereby 
inhibiting tribes from gathering berries for traditional uses.
    Last, I would like to say that the effective management of cultural 
sites for Native Americans will ultimately require a thorough mutual 
understanding of native and non-native communities. Last summer, I 
visited Crater Lake National Park to participate in its Centennial 
Celebration. While the park has been enjoyed by tourists for 100 years, 
the Klamath and Umpqua Tribes have revered the lake as a place of 
spiritual power for thousands of years. The celebration incorporated 
both traditions--to the great benefit of all in attendance. But in a 
twist of irony, smoke from a nearby wildfire on Forest Service land 
filled the caldera of the lake--making its waters almost invisible to 
visitors.
    I'm not sure what the message from the heavens was, but it had 
something to do with having a balanced approach to Federal land 
management. I hope that the Department of the Interior, as well as the 
Forest Service, continue to work with tribes and local communities 
toward this end--since those are the people who know that land the 
best.
                                 ______
                                 

   Prepared Statement of Hon. Craig Thomas, U.S. Senator from Wyoming

    Thank you for holding this hearing to discuss Native American 
sacred sites. As you know, the Federal Government owns roughly 50 
percent of the land in the State of Wyoming. These Federal land 
management agencies--the U.S. Forest Service, the National Park 
Service, the Bureau of Land Management, and the Fish and Wildlife 
Service--all have a tremendous responsibility of consulting with 
various groups, including tribes, in land management decisions. Many of 
these areas contain sites that have a spiritual meaning for tribes 
throughout the West.
    Throughout my time in Congress, I have always advocated for public 
involvement in land management decision processes. Further, I have 
always supported the right of Native American people to practice their 
religions. Tribal consultation and the consideration of sacred sites is 
an important component in this process.
    Federal land management agencies are required to consult with 
tribes on a government-to-government basis whenever plans, activities, 
decisions or proposed actions affect the integrity or access to such 
sites. Further, the agencies must accommodate access to and ceremonial 
use of Native American sacred sites to the extent that is practicable, 
permitted by law, and consistent with essential agency functions. 
Maintaining access and multiple use is a purpose of our public lands. 
While I certainly understand the need to protect sacred and ceremonial 
areas, this must be done in a reasonable and responsible manner that is 
consistent with the purpose of our public lands.
    Federal agencies have a responsibility to provide for the 
protection of sacred sites while allowing reasonable and responsible 
multiple use activities. These two goals should be inclusive of each 
other and I support efforts that will allow us to achieve both 
objectives. Including all interested parties is necessary for this to 
occur.
    Thank you, Mr. Chairman. I look forward to hearing from our 
witnesses.
                                 ______
                                 

                    Prepared Statement of Nancy Kile

    I am Nancy Kile, my grandmother and grandfather met on a ranch near 
Pine Ridge, SD. My grandfather a ranch hand, an Irishman from Omaha, 
NE, my grandmother a cook on that ranch, an Oglala Lakota Woman. My 
mother went to boarding school at Holy Rosary Mission, on the Pine 
Ridge Indian Reservation. Her family later moved to live in Crawford, 
NE, 3 miles from Fort Robinson.
    I and my husband with our two children moved to Sturgis 16 years 
ago. Our oldest son graduated from Sturgis Brown High School, our 
daughter will graduate from Sturgis Brown High School. Meade School 
district offered my children a respectful, educational block in 7th 
grade, Lakota studies. Unfortunately adults in Meade county hold 
children to standards we are unwilling to keep ourselves.
    Eight years ago I entered a treatment program to address my 
chemical dependence, my reliance on alcohol and street drugs was 
seriously damaging my relationships and life choices. Part of my 
program of recovery was to seek a spiritual understanding of God as I 
understood it to be. Within recovery I met a Native American Elder, an 
enrolled member of the Oglala Sioux Tribe who had been sober many years 
and was willing to share her spiritual teachings. Inipi, Lakota 
ceremonial songs and hearing the language of my grandmother spoken in 
prayer cleansed and renewed my faith in self which helped me understand 
how truly simple and beautiful life is when you accept the gift of it, 
in the moment. Four years later I completed a spiritual commitment in 
hanbleciya at Bear Butte in Meade County, South Dakota. These personal 
experiences are why I was first shocked, then outraged by my local 
government and business people's total disregard for so sacred a shrine 
as Bear Butte. A rifle range only 4 miles north of the Mount Sinai of 
Indigenous cultures throughout the United States and Canada.
    Barely 25 years ago my mother's Lakota people could not legally 
practice their ancient ceremonies. Genocide, assimilation and fear 
acted out upon them, did not stop my Lakota people from loving, 
learning, laughing, living, or praying in the way our ancestors did. 
History is still happening, we are proof of it. Our brilliance as human 
beings, and Indigenous peoples to these lands brought us through 
holocaust. Concentration camps, boarding schools, forced marches, 
relocation, and termination, in fact genocidal tactics have not 
exterminated us. Today we better understand and remain learning about 
what has happened to us, we no longer need the numbness of shock to 
survive. Furthermore, as a Native American I will not apologize for 
using the United States laws and her constitution to further the 
healing and restorative justice that is due to my people.
    As I become more involved in my local, State, and Federal 
Government I became aware of what little regard there is for the 
spiritual inter-dependence we humans share with our environment. 
Tourism, expansion corporations and developers are marketing 
destruction of wilderness by using language like ``Black Hill&#8217;s 
newest wonder'', ``Hell canyon bridge to be a tourist attraction in 
itself''. Bressler billboards are involved in litigation within South 
Dakota for surreptitiously using railroad easements to place huge signs 
that mar the landscape in Meade County. 210 limestone mine permits were 
granted in the southern Black Hills, limestone is used in concrete, 15-
17 feet of limestone scraped off the top of the earth.
    City governments lend their names to gap financing and community 
development block grants that shuffle moneys to business interests that 
don&#8217;t have attention for the balanced overall community 
perspective. Forest Service wants to ``interface'' with forests so they 
can, enable development at the expense of taxpayer dollars. My 
awareness of these issues prompted me to take a seat on the newly 
formed Meade County Natural Resource Committee, who's purpose is to be 
an advisory board to Meade County Commissioners. As we are in beginning 
stages, our goal is to write a land use plan. Meade County's history, 
culture and traditions are to be taken into consideration so that we 
can use this committee and land use plan as a basis to sustain economic 
viability within the boundaries of Meade County.
    This seat requires my informal education on land use, I am given 
recommended reading on land use terms and recent history regarding land 
within the 1851 and 1868 Fort Laramie Treaty boundary. While I am doing 
this, the misconception in Meade County's popular belief with reference 
to how Native Americans value land becomes clear. Historically and 
contemporarily this stereotyping has allowed paternalistic government 
and it&#8217;s entities who took stewardship of Indigenous lands a 
highbrowed rational for the continued destruction of tribal holdings 
under the guise of management. Key components to my study of cultural 
resources and land use differ on two basic, yet complicated 
perspectives:
    (1) The dominant culture appears to separate currency, monetary 
value from the land. Indigenous people value the land, we are the land. 
Our culture, language and lifestyles are and never were separate from 
it, so the idea of one person, or a few people selling the land is 
disrespectful to our children, their future, our ancestors and our 
past.
    (2) Historical exclusion; it is unacceptable to leave our history 
out of how the dominant society and culture views land use and 
sustainable development. Consultation at inception with Tribal 
Governments is lawfully mandatory, consultation with Spiritual Leaders 
with regard to land use that effects Sacred Sites is lawfully 
mandatory. As Native Americans we are asking that government entities 
clarify consultation with Tribes, because it appears to mean, ``we 
invite you to come to a low level meeting, we tell you what we are 
going to do, we suffer to listen to your opinions, expect accolades 
because we tolerated your perspective by the invitation alone, then, we 
do what we want''.
    In conclusion, I think many of my neighbors sitting on the Meade 
County Natural Resource Committee can find common ground with the 
Native American perspective. I think we have more in common than we are 
different, I also grew up on a ranch/farm in western Nebraska. Native 
Americans and ranching/farming interests want to be heard.
    I contend that people are the most important natural resource of 
Meade County. We are sustainable, we are renewable but we must be 
willing to change. Change is also what history taught my Lakota people. 
We&#8217;we accepted the best of what has been forced upon us, will the 
dominant culture accept the best of what we have to offer? Our ancient 
contracts within relationship, kinship and balance with our Grandmother 
Earth. Senator Campbell please help us protect our sacred sites.

[GRAPHIC] [TIFF OMITTED] T7991.001

[GRAPHIC] [TIFF OMITTED] T7991.002

[GRAPHIC] [TIFF OMITTED] T7991.003

[GRAPHIC] [TIFF OMITTED] T7991.004

[GRAPHIC] [TIFF OMITTED] T7991.005

[GRAPHIC] [TIFF OMITTED] T7991.006

[GRAPHIC] [TIFF OMITTED] T7991.007

[GRAPHIC] [TIFF OMITTED] T7991.008

[GRAPHIC] [TIFF OMITTED] T7991.009

[GRAPHIC] [TIFF OMITTED] T7991.010

[GRAPHIC] [TIFF OMITTED] T7991.011

[GRAPHIC] [TIFF OMITTED] T7991.012

[GRAPHIC] [TIFF OMITTED] T7991.013

[GRAPHIC] [TIFF OMITTED] T7991.014

[GRAPHIC] [TIFF OMITTED] T7991.015

[GRAPHIC] [TIFF OMITTED] T7991.016

[GRAPHIC] [TIFF OMITTED] T7991.017

[GRAPHIC] [TIFF OMITTED] T7991.018

[GRAPHIC] [TIFF OMITTED] T7991.019

[GRAPHIC] [TIFF OMITTED] T7991.020

[GRAPHIC] [TIFF OMITTED] T7991.021

[GRAPHIC] [TIFF OMITTED] T7991.022

[GRAPHIC] [TIFF OMITTED] T7991.023

[GRAPHIC] [TIFF OMITTED] T7991.024

[GRAPHIC] [TIFF OMITTED] T7991.025

[GRAPHIC] [TIFF OMITTED] T7991.026

[GRAPHIC] [TIFF OMITTED] T7991.027

[GRAPHIC] [TIFF OMITTED] T7991.028

[GRAPHIC] [TIFF OMITTED] T7991.029

[GRAPHIC] [TIFF OMITTED] T7991.030

[GRAPHIC] [TIFF OMITTED] T7991.031

[GRAPHIC] [TIFF OMITTED] T7991.032

[GRAPHIC] [TIFF OMITTED] T7991.033

[GRAPHIC] [TIFF OMITTED] T7991.034

[GRAPHIC] [TIFF OMITTED] T7991.035

[GRAPHIC] [TIFF OMITTED] T7991.036

[GRAPHIC] [TIFF OMITTED] T7991.037

[GRAPHIC] [TIFF OMITTED] T7991.038

[GRAPHIC] [TIFF OMITTED] T7991.039

[GRAPHIC] [TIFF OMITTED] T7991.040

[GRAPHIC] [TIFF OMITTED] T7991.041

[GRAPHIC] [TIFF OMITTED] T7991.042

[GRAPHIC] [TIFF OMITTED] T7991.043

[GRAPHIC] [TIFF OMITTED] T7991.044

[GRAPHIC] [TIFF OMITTED] T7991.045

[GRAPHIC] [TIFF OMITTED] T7991.046

[GRAPHIC] [TIFF OMITTED] T7991.047

[GRAPHIC] [TIFF OMITTED] T7991.048

[GRAPHIC] [TIFF OMITTED] T7991.049

[GRAPHIC] [TIFF OMITTED] T7991.050

[GRAPHIC] [TIFF OMITTED] T7991.051

[GRAPHIC] [TIFF OMITTED] T7991.052

[GRAPHIC] [TIFF OMITTED] T7991.053

[GRAPHIC] [TIFF OMITTED] T7991.054

[GRAPHIC] [TIFF OMITTED] T7991.055

[GRAPHIC] [TIFF OMITTED] T7991.056

[GRAPHIC] [TIFF OMITTED] T7991.057

[GRAPHIC] [TIFF OMITTED] T7991.058

[GRAPHIC] [TIFF OMITTED] T7991.059

[GRAPHIC] [TIFF OMITTED] T7991.060

[GRAPHIC] [TIFF OMITTED] T7991.061

[GRAPHIC] [TIFF OMITTED] T7991.062

[GRAPHIC] [TIFF OMITTED] T7991.063

[GRAPHIC] [TIFF OMITTED] T7991.064

[GRAPHIC] [TIFF OMITTED] T7991.065

[GRAPHIC] [TIFF OMITTED] T7991.066

[GRAPHIC] [TIFF OMITTED] T7991.067

[GRAPHIC] [TIFF OMITTED] T7991.068

[GRAPHIC] [TIFF OMITTED] T7991.069

[GRAPHIC] [TIFF OMITTED] T7991.070

[GRAPHIC] [TIFF OMITTED] T7991.071


</pre></body></html>
